                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

 Case Number: A04040015
                                                                                 11           Page 1 of I



          The complainantlis concerned that a paper with a similar synthetic strategy appeared almost
          concurrently with her own synthesis pape?, and is suspicious that the authors of the duplicative
          paper3were reviewers of her NSF proposals4. The allegation is breach of peer review
          confidentiality.

          We compared the papers and determined that there was a similarity in the central strategy for
          achieving the targeted synthesis. Further, we searched the literature for related papers and found
          none, underscoring the uniqueness of the synthetic approach. We note that the chronological
          information published with each paper documents the anteriority of submission of the
          complainant's manuscript.

          We examined the reviewer list and reviews for each of the complainant's proposals; we find no
          support for the allegation. We note that the same synthetic ideas put forward by the complainant
          may have been described in a PRF-ACS proposal likely to have been submitted in early 2003.~

          Our inquiry shows no substance to the allegation of breach of peer review confidentiality in the
          NSF peer review process.

          Accordingly, this case is closed.




          1
            redacted
          2
            redacted
            redacted
          4
            redacted
            redacted



NSF OIG Form 2 (1 1/02)
